Case: 20-1684

Document: 9-2

Filed: 12/08/2020

Page: 1

(2 of 4)

NOT RECOMMENDED FOR PUBLICATION

FILED

Dec 08, 2020
DEBORAH S. HUNT, Clerk

No. 20-1684
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
MARJUAN SHONDELL FLEMING,
Defendant-Appellant.

)
)
)

)
)
)
)

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE WESTERN DISTRICT OF
MICHIGAN

)
)

ORDER
Before: McKEAGUE, DONALD, and READLER, Circuit Judges.
Marjuan Shondell Fleming, a pro se federal prisoner, appeals a district court order denying
his motion for a reduction of sentence pursuant to the First Step Act of 2018 (“the Act”), Pub. L.
No. 115-391, 132 Stat. 5194. This case has been referred to a panel of this court that, upon
examination, unanimously agrees that oral argument is not needed. See Fed. R. App. P. 34/aV
In 2011, a jury convicted Fleming of distribution of cocaine base, in violation of21 U.S.C.
§ 841: and possession with intent to distribute five grams or mote of cocaine base, in violation of
21 U.S.C. § 841. Prior to trial, the government filed a notice of sentence enhancement pursuant to
21 U.S.C. § 851 based on Fleming’s prior felony drug convictions. Fleming was also determined
to be a career offender under USSG $ 4B1.1. Based on a total offense level of 37 and a criminal
history category of VI, Fleming’s applicable guidelines range was 360 months to life
imprisonment. During his sentencing hearing, Fleming requested that the district court sentence
him under the Fair Sentencing Act (“FSA”), using the lowered total offense level of 34 and
resulting guidelines range of 262 to 327 months. The district court agreed and sentenced Fleming

Case: 20-1684

Document: 9-2

Filed: 12/08/2020

Page: 2

(3 of 4)

No. 20-1684
-2to 276 months of imprisonment. We affirmed. United States v: Fleming, No. 11-2094 (6th Cir.
Jan. 30, 2013) (order).
U

,, t

.

'

'

1

' ■

'*

;

vi

,

*

.

.

■ i

■:

.

1

■

’ In January 2019, Fleming filed a motion for a sentence reduction, requesting that the
district court apply the lower statutory maximums set forth in § 401 of the Act and sentence him
using a total offense level of 29 and a resulting guidelines range of 151 to 188 months. Fleming
acknowledged that he had been sentenced under the FSA. In an amendment to his motion, Fleming
argued that he is also entitled to a downward variance because § 401 of the Act changed the
requirements for prior convictions that may qualify as predicates for enhancement under 21 II.S.C.
8 84UhY1 YC1Y
The district court denied the motion, concluding that Fleming had already received the
benefits afforded under the FSA and that § 404(c) of the Act prohibits courts from further reducing
the sentence of defendants sentenced under the FSA.
On appeal, Fleming reasserts his arguments in support of a reduction and variance and
contends that the denial of his motion results in unwarranted sentencing disparities.
Fleming’s eligibility for a sentence reduction is reviewed de novo.

United States v.

Boulding, 960 F.3d 774. 778 (6th' Cir. 2020). Section 404 of the Act authorizes district courts to
reduce the sentence of a defendant who did not receive the benefit of the FSA because he
committed his offense before the FSA became effective. See id. at 777-78. But § 404 specifically
prohibits district courts from reducing a defendant’s sentence if “the sentence was previously
imposed ... in accordance with” the FSA,; First Step Act § 404(c), 132 Stat. at 5222; see Boulding,
960 F.3d at 777-78. Because Fleming’s sentence was imposed in accordance with the FSA, the
district court correctly concluded that he is not eligible for a reduction under § 404.
Nor can Fleming obtain a reduced sentence under § 401 of the Act. For one thing, that
section of the Act is not retroactive. See § 401(c); United States v. Wiseman, 932 F..3d 411.417
(6th Cir. 2019), cert, denied, 140 S. Ct. 1237 (2020). For another thing, contrary to Fleming’s
argument, the Act “did not alter the definition of ‘felony drug offensefs]’ that serve as qualifying
convictions under 21 IJ.S.C. 6 841('hV1VCV” Wiseman, 932 F.3d at 417.

Case l:10-cr-00301-PLM ECF No. 69 filed 06/17/20 PagelD.605 Page 1 of 2
.

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
sotitHERN Division
United States of America,
Plaintiff, ,

•

-V'"s

Marjuan Shondell Fleming,
Defendant.

‘

)
)
)
)
)

No. l:10-cr-301
Honorable Paul L. Maloney

)
)

ORDER DENYING DEFENDANT’S MOTION FOR REDUCTION OF SENTENCE
Defendant Fleming seeks relief under the First Step Act of 2018 and asks the Court
to reduce his sentence. (ECF No. 61.) Defendant has also filed a motion to amend his First
Step Act motion. (ECF No. 68.) The motions will be denied.
In April 2011, a jury found Defendant guilty of the two counts brought against him at
trial. Judge Robert Holmes Bell sentenced Defendant on August 30, 2011. The Fair
Sentencing Act was enacted on August 3, 2010, after Defendant committed the crimes and
before his conviction and sentencing. At sentencing, defense counsel requested the Court
apply the Fair Sentencing Act to Defendant (ECF No. 53 Sent Trans. ,at 5 PageID.395.)
The Court granted the motion and calculated Defendant’s guideline range using the Fair
Sentencing Act revisions to the Sentencing Guidelines. (Id at 11 PageID.401.)
This Court cannot provide Defendant any relief under the First Step Act The Act
allows, but does not require, a court to “impose a reduced sentence as if sections 2 and 3 of
the Fair Sentencing Act of 2010 (Public Law 111-220; 124 Stat 2372) were in effect at the
time the covered offense was committed.” Pub. Law No. 115-391§ 404(b); 132 Stat 5222.

Case l:10-cr-00301-PLM ECF No. 69 filed 06/17/20 PagelD.606 Page 2 of 2

The Act prohibits a court from granting any relief “if the sentence was previously imposed
or previously reduced in accordance with the amendments made by sections 2 and 3 of the
Fair Sentencing Act of 2010 . . .

Id. § 404(c). Defendant acknowledges that Judge Bell

applied the changes contained the Fair Sentencing Act when determining Defendant’s
sentence. (ECF No. 61 Def. Br. at 2 5 6 PageID.514.)
Defendant already received the benefit of die changes made in the Fair Sentencing
Act. The First Step Act, dierefore, does not provide any relief and explicitly prohibits this
Court from reducing Defendant’s sentence.
Defendant’s motion for reduction of sentence (ECF No. 61) and his motion to amend
(ECF No. 68) are DENIED. IT IS SO ORDERED.
/s/ Paul L. Maloney
Paul L. Maloney
United States District Judge

Date: Tune 17. 2020

2

